                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
  Unified School District 341
      Oskaloosa, Kansas




                       Report No. 27010-17-KC
                                 October 2003
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL - AUDIT
                                          Great Plains Region
                                     8930 Ward Parkway, Suite 3016
                                    Kansas City, Missouri 64114-3302
                                  TEL: 816.926.7667 FAX: 816.926.7676




DATE:          March 26, 2004

REPLY TO
ATTN OF:       27010-17-KC

SUBJECT:       National School Lunch Program – Unified School District 341,
               Oskaloosa, Kansas

TO:            Darlene Barnes
               Acting Regional Administrator
               Food and Nutrition Service
               1244 Speer Boulevard, Suite 903
               Denver, CO 80204


This report presents the results of the subject audit. The written response, dated October 3, 2003,
to the official draft report has been incorporated into the Findings and Recommendations section
of the report, where appropriate. The text of the response is attached as exhibit A. The reply
expressed agreement with the recommendations. The Findings and Recommendations section of
the report explains those actions necessary for us to consider management decisions on
Recommendations Nos. 1 and 2. In general, we will need to be advised of the specific actions
completed or planned along with acceptable dates for completing the proposed actions.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final action.
Please note that the regulation requires management decisions to be reached on all findings and
recommendations within 6 months from the date of report issuance.

We appreciate the assistance provided to us during our review.


/s/ Herbert E. Carpenter for

DENNIS J. GANNON
Regional Inspector General
 for Audit
Executive Summary
Food and Nutrition Service, National School Lunch Program, Oskaloosa, Kansas
(Audit Report No. 27010-17-KC)

Results in Brief                  This report presents the results of our audit of the National School Lunch
                                  Program (NSLP),1 as operated by Unified School District 341. This district
                                  served as the local school food authority (SFA) under an agreement with the
                                  Kansas State Department of Education (KSDE), which served as the State
                                  agency (SA). The United States Department of Agriculture’s (USDA) Food
                                  and Nutrition Service (FNS) served as the funding agency. For school year
                                  2001/2002 operations, the SFA claimed about $104,000 in FNS NSLP/SBP
                                  reimbursement and about $4,300 in SA reimbursement.

                                  Our objectives were to evaluate the SFA’s meal accountability, procurement,
                                  accounting systems, and management controls that were designed to provide
                                  reasonable assurance as to the accuracy of its meal claims and reimbursement
                                  for school years 2001/2002 and 2002/2003 through December 31, 2002. We
                                  found that the SFA needed to improve management controls related to its
                                  accounting systems and procurement. We identified no exceptions related to
                                  the SFA’s meal accountability and accuracy of its meal claims.

                                  Reports to the SA were incorrect because SFA officials did not properly
                                  complete monthly financial status summaries as required, made errors in
                                  recording revenue and reimbursement amounts, improperly used estimated
                                  rather than actual amounts to make corrections to accounts, did not properly
                                  account for Head Start Program sales revenue, and recorded Federal
                                  reimbursement funds received for the Summer Food Service Program (SFSP)
                                  as State funds. In addition, there were no controls in place to ensure the
                                  SFA’s purchasing cooperative was required to or followed State and Federal
                                  procurement requirements.

Recommendations
In Brief                          We recommended that FNS require the SA to direct the SFA to strengthen
                                  accounting controls by periodically monitoring activities to ensure
                                  accounting for revenues for reimbursable student sales and sales to the Head
                                  Start Program are properly accomplished, the monthly financial status
                                  summaries are timely completed, and all Federal revenues are recorded in the
                                  proper account, as specified by the SA. We also recommended that the SA
                                  be required to coordinate with the SFA to develop a written contract with the
                                  purchasing cooperative and to ensure the purchasing cooperative complies
                                  with the contract terms and applicable Federal and State procurement
                                  requirements.


1
    Also includes the School Breakfast Program (SBP).

USDA/OIG-A/27010-17-KC                                                                                  Page i
FNS Response       The agency response showed FNS officials concurred with the
                   recommendations. We incorporated their comments in the applicable
                   sections of the report and attached a copy of the comments as exhibit A.

OIG Position       The Findings and Recommendations section of the report explains those
                   actions necessary for us to consider management decisions on
                   Recommendations Nos. 1 and 2. In order to reach management decisions, we
                   will need to be advised of the specific actions completed or planned along
                   with acceptable timeframes for completing the proposed actions.




USDA/OIG-A/27010-17-KC                                                                Page ii
Abbreviations Used in This Report

the Act           Richard B. Russell National School Lunch Act
CFR               Code of Federal Regulations
FNS               Food and Nutrition Service
KSDE              Kansas State Department of Education
NSLP              National School Lunch Program
OIG               Office of Inspector General
SA                State Agency
SBP               School Breakfast Program
SFA               School Food Authority
SFSP              Summer Food Service Program
USDA              United States Department of Agriculture




USDA/OIG-A/27010-17-KC                                           Page iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Table of Contents ...................................................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Internal Controls ............................................................................................................. 3

        Finding 1             SFA Did Not Complete Monthly Financial Status Summaries And Properly
                              Record Revenues..................................................................................................... 3
                                  Recommendation No. 1.................................................................................... 5
        Finding 2             Agreement with Purchasing Cooperative Did Not Specify Requirements ............. 5
                                  Recommendation No. 2.................................................................................... 6

Scope and Methodology.......................................................................................................................... 8

Exhibit A – FNS Response to the Draft Report ................................................................................... 9




USDA/OIG-A/27010-17-KC                                                                                                                      Page iv
Background and Objectives
Background               On June 4, 1946, Congress passed the National School Lunch Act,2
                         now the Richard B. Russell National School Lunch Act (the Act) which
                         authorizes Federal school lunch assistance. The intent of the Act, as
                         amended December 29, 2001, is to safeguard the health and well-being
                         of the Nation’s children by providing them with nutritious foods and to
                         encourage the domestic consumption of nutritious agricultural
                         commodities and other foods. This is accomplished by assisting States,
                         through grants-in-aid and other means, in providing an adequate supply
                         of food and facilities for the establishment, maintenance, operation, and
                         expansion of nonprofit school lunch programs.

                         The Act, as amended, authorizes the payment of general and special
                         assistance funds to States based upon the number and category of
                         lunches served. Section 4 of the Act authorizes general cash assistance
                         payment for all lunches served to children, in accordance with the
                         provisions of the National School Lunch Program (NSLP) and
                         additional special cash assistance for lunches served under the NSLP to
                         children determined eligible for free or reduced-price lunches. The
                         States are reimbursed at various rates per lunch, depending on whether
                         the child was served a free, reduced-price, or full-price (paid) lunch.
                         Eligibility of children for free or reduced-price lunches is based upon
                         their family’s household size and income, as listed in the Food and
                         Nutrition Service (FNS) Income Eligibility Guidelines, which are
                         reviewed annually.

                         FNS is the United States Department of Agriculture (USDA) agency
                         responsible for administering the NSLP/School Breakfast Program
                         (SBP). The FNS Mountain Plains Regional Office, located in
                         Denver, Colorado, is responsible for monitoring and overseeing
                         operations in Kansas. The Kansas State Department of Education
                         (KSDE) serves as the State agency (SA) and is responsible for
                         overseeing program operations within Kansas. The School Food
                         Authority (SFA) located in Oskaloosa, Kansas, is responsible for
                         operating the NSLP in accordance with regulations. Each SA is
                         required to enter into a written agreement with FNS to administer the
                         NSLP/SBP and each SA enters into agreements with SFA’s to oversee
                         day-to-day operations. The SFA administered the NSLP/SBP in three
                         public schools.

                         The fiscal year 2002 funding for the NSLP was $6 billion for meal
                         reimbursements of approximately 4.7 billion lunches. The Kansas SA
2
    42 U.S. Code 1751.

USDA/OIG-A/27010-17-KC                                                                           Page 1
                   received approximately $58 million for the NSLP and $14 million for
                   the SBP in Federal reimbursements for fiscal year 2002. For school
                   year 2001/2002, Kansas provided State funds of approximately
                   $2.5 million to SFA’s.

                   The general NSLP requirements are codified in Title 7, Code of Federal
                   Regulations (CFR) 210. Requirements for determining eligibility for
                   free and reduced-price meals and free milk are codified in 7 CFR 245.
                   In accordance with 7 CFR 250, USDA also provides donated foods to
                   SFA’s to assist in operating the nonprofit lunch program. The Kansas
                   SA generally provides cash in lieu of actual commodities. Generally,
                   schools must collect applications on an annual basis from households
                   of enrolled children and make annual determinations of their eligibility
                   for free or reduced-price meals. These schools must also count the
                   number of free, reduced-price, and paid meals served at the point of
                   service on a daily basis or use an approved alternative method.

Objectives         The objectives of our review were to evaluate controls over the
                   administration of the NSLP and SBP. We evaluated policies and
                   procedures over meal accountability and agency oversight of program
                   operation. To accomplish this, we evaluated (1) the accuracy of
                   collections and accounting for reimbursed meals, (2) the accounting
                   and use of program funds relating to the SFA’s procurement of goods
                   and services, and (3) the accounting for the SFA’s school food service
                   account.




USDA/OIG-A/27010-17-KC                                                              Page 2
Findings and Recommendations
Section 1. Internal Controls



Finding 1                   SFA Did Not Complete Monthly Financial Status Summaries
                            And Properly Record Revenues

                            The monthly financial status summary reports to the SA were not
                            prepared in accordance with procedures, and the SFA did not ensure it
                            properly accounted for lunch program funds, as specified by the SA.
                            This occurred because SFA personnel were not fully aware of SA
                            requirements, made errors in recording revenue and reimbursements
                            received, and recorded estimated amounts, rather than actual amounts,
                            in its accounting system. As a result, the SFA overstated revenue from
                            student sales by about $9,300 for school year 2001/2002. In addition,
                            the SFA improperly offset $8,700 in revenue received from Head Start
                            Program sales against expenses and improperly recorded over $3,800
                            of Federal reimbursements received for the Summer Food Service
                            Program (SFSP) as State funds.

                            SA instructions require the SFA to prepare a monthly financial status
                            summary for each calendar month of the fiscal year, to record revenue
                            for student sales of reimbursable meals in separate accounts from
                            revenue received from nonreimbursable meals, to report revenue from
                            other sources as miscellaneous revenue, and to report revenue from
                            Federal sources under Account 4550 (Child Nutrition Programs) on the
                            monthly and annual financial status summary reports.3

                            a.   Required Monthly Financial Status Summary Was Not Prepared
                                 And Student Sales Were Improperly Recorded.

                                 We found that the revenue accounts for reimbursable meals4 had
                                 more funds recorded as revenue than could be attributed to the
                                 meals sold to students. According to SFA officials, they normally
                                 made accounting entries to transfer revenue to the proper accounts
                                 at the end of each month, because they initially recorded all
                                 revenue (except Head Start reimbursements) in the food service
                                 fund’s miscellaneous revenue Account 1990 (Miscellaneous).
                                 However, SFA officials stated they had noticed revenues were
                                 lower in the student lunch and breakfast accounts than the prior
                                 year. Upon review, the officials determined the monthend

3
 KSDE Accountability and Record-Keeping for the School Nutrition Programs, p. 17 and 18.
4
 Account 1611 (Student Sales, School Lunch Program) and Account 1612 (Student Sales, School Breakfast
Program).
USDA/OIG-A/27010-17-KC                                                                                  Page 3
                                 transfers were not completed for 2 months during the school year.
                                 SFA officials then improperly used estimated amounts as the basis
                                 to transfer additional funds to the accounts.

                                 The SFA used an internal report (monthly money summary)
                                 instead of the monthly financial status summaries to determine the
                                 transfers. SFA officials stated they did not prepare the monthly
                                 financial status summaries since the SA does not require the SFA
                                 to submit the forms (the monthly forms are to be prepared but only
                                 the annual report is required to be sent to the SA). We believe that
                                 had the SFA prepared the monthly financial status summaries, the
                                 cited condition would have been promptly detected.

                                 We were able to obtain documentation for the correct amounts that
                                 should have been transferred and determined the student lunch and
                                 breakfast accounts5 were overstated by about $9,300 for the
                                 2001/2002 school year.

                            b.   Head Start Program Revenue Improperly Recorded.

                                 Our review of the food service account revealed that SFA officials
                                 had recorded approximately $8,700 of revenues received from the
                                 contract to provide meals for the Head Start Program as an offset
                                 to the expense Account 630 (Food and Milk). The SA informed us
                                 that revenues from the Head Start Program are to be reported as
                                 miscellaneous revenue under Account 1990 (Miscellaneous). As a
                                 result of offsetting revenues against expenditures, the SFA
                                 underreported revenues and expenditures by about $8,700 for the
                                 2001/2002 school year.

                            c.   Federal Funds Recorded as State Funds.

                                 The SFA recorded Federal SFSP reimbursements as State
                                 reimbursements. SFA officials stated the form received from the
                                 SA did not contain a breakdown of the source of the funds.
                                 Therefore, the SFA incorrectly recorded the SFSP funds as State
                                 funds, resulting in the SFA underreporting Federal reimbursements
                                 and overreporting State funding by over $3,800.

                                 SA officials noted that all SFSP reimbursement funds were from
                                 Federal sources and should be accounted for as “Federal” on the
                                 monthly and annual financial status summary reports.



5
 Account 1611 (Student Sales, School Lunch Program) and Account 1612 (Student Sales, School Breakfast
Program).
USDA/OIG-A/27010-17-KC                                                                                  Page 4
                               The SFA stated they would start completing the monthly financial
                               status summaries, start recording the Head Start Revenues under
                               miscellaneous revenue, and start recording the SFSP revenue as
                               Federal reimbursements.

Recommendation No. 1

                           Instruct the SA to require the SFA to strengthen accounting controls by
                           periodically monitoring activities to ensure accounting for revenues for
                           reimbursable student sales and sales to the Head Start Program are
                           properly accomplished, the monthly financial status summaries are
                           timely completed, and all Federal revenues are recorded in the proper
                           account, as specified by the SA.

                           FNS Response.

                           FNS concurred with Recommendation No. 1 and will instruct the SA to
                           require the SFA to complete the recommended actions.

                           OIG Position.

                           We can accept the management decision once we receive specific
                           timeframes for the completion of the proposed actions.

Finding 2                  Agreement with Purchasing Cooperative Did Not Specify
                           Requirements

                           The SFA purchased through a purchasing cooperative without a written
                           contract or specifying those required provisions to be followed to
                           ensure its procurements met all applicable Federal and State
                           requirements. In addition, the SFA did not require that the purchasing
                           cooperative solicit bids to obtain the lowest prices. In general, this
                           condition occurred because the SFA’s personnel were unaware of
                           Federal and State requirements. As a result, there was a lack of
                           assurance that procurements maximized competition and resulted in the
                           lowest cost to the SFA.

                           Federal regulations6 require “procurement by sealed bids (formal
                           advertising). Bids are publicly solicited and a firm-fixed-price contract
                           (lump sum or unit price) is awarded to the responsible bidder whose
                           bid, conforming with all the material terms and conditions of the
                           invitation for bids, is the lowest in price.” The SA requires, “For
                           procurement of services or supplies costing in aggregate in excess of



6
    7 CFR 3016.36(d)(2).
USDA/OIG-A/27010-17-KC                                                                       Page 5
                               $10,000, competitive sealed bids (formal advertising) are publicly
                               solicited or a Request for Proposal is publicized.”7

                               The SFA did not ensure the purchasing cooperative publicly advertised
                               for bids (newspapers, internet, etc.) in purchasing food and nonfood
                               supplies, according to requirements. According to officials of the
                               purchasing cooperative, invitations to bid were directly solicited from
                               current suppliers and they were unaware of the Federal and State
                               regulations. As a result, the cooperative’s procurements, totaling over
                               $100,000 for food and nonfood for school year 2001/2002, did not
                               assure maximum open and free competition. However, we believe
                               formal procurement procedures should be used in this case, because
                               documents from the purchasing cooperative showed that food
                               purchases for winter delivery totaled approximately $300,000 with one
                               successful bidder being awarded over $216,000 of this amount.

                               During our review, we did not note any specific SA requirements that
                               purchasing cooperatives had to follow when compared to those
                               provisions contained in agreements with food service management
                               companies. In contrast, the SA had specified that certain provisions be
                               included in contracts between SFA’s and food service management
                               companies, including provisions for Equal Employment Opportunity,
                               access to books and records, and record retention.8 Officials of the
                               SFA said there was no written contract with the cooperative and a
                               written agreement with the cooperative was limited to describing only
                               the administrative fee allowed. We believe there needs to be a written
                               agreement between SFA’s and cooperatives covering all applicable
                               Federal and State requirements.

                               SFA officials said they had initiated corrective actions by obtaining a
                               list of State and Federal requirements and had met with the Board of
                               Education to discuss developing an appropriate written contract
                               containing those requirements with the purchasing cooperative.

Recommendation No. 2

                               Require the SA to coordinate with the SFA to develop a written
                               contract with the purchasing cooperative and ensure this purchasing
                               cooperative complies with the contract terms and applicable Federal
                               and State procurement requirements.




7
    KSDE Food Service Facts Handbook, Chapter 8, dated fall of 1999.
8
    KSDE Food Service Facts Handbook, Chapter 8, dated fall of 1999.
USDA/OIG-A/27010-17-KC                                                                         Page 6
                   FNS Response.

                   FNS concurred with Recommendation No. 2 and will require the SA to
                   coordinate with the SFA to complete the recommended actions.

                   OIG Position.

                   We can accept the management decision once we receive specific
                   timeframes for the completion of the proposed actions.




USDA/OIG-A/27010-17-KC                                                        Page 7
Scope and Methodology
                   Our review primarily covered NSLP/SBP operations July 1, 2001, to
                   December 31, 2002, concentrating on operations since July 1, 2002.
                   However, records for other periods were reviewed, as deemed
                   necessary. We performed audit work at the FNS Regional office,
                   Kansas SA, and the SFA in Oskaloosa, Kansas. We selected the SFA
                   based on its location and its use of a purchasing cooperative. Audit
                   work was performed during the period March through April 2003.

                   We reviewed NSLP/SBP operations at all three schools and made
                   observations at each school. Our audit was performed in accordance
                   with Government Auditing Standards.

                   To accomplish our review objectives, we reviewed FNS, SA, and SFA
                   regulations, policies, procedures, manuals, and instructions governing
                   NSLP/SBP operations. We also reviewed the SA’s most recent
                   administrative review of the SFA’s NSLP/SBP operations and the
                   SFA’s corrective actions taken in response to the administrative review
                   findings and recommendations. The following audit procedures were
                   also performed:

                   •     Interviewed officials from the SFA and SA in order to obtain an
                         overview of their method of operation of the NSLP/SBP;

                   •     Evaluated the SFA’s procedures used to gather and consolidate
                         monthly meal claims and whether reports are verified for accuracy;

                   •     Evaluated edit check controls used to assure the reasonableness of
                         claims for reimbursement;

                   •     Reviewed the SFA’s accounting system, which included a review
                         of program funds and interest on those funds;

                   •     Analyzed the SFA’s methods used for procurement of goods and
                         services; and

                   •     Analyzed the monitoring efforts of the SFA through a review of the
                         onsite accountability reviews conducted during school year
                         2001/2002.




USDA/OIG-A/27010-17-KC                                                              Page 8
Exhibit A – FNS Response to the Draft Report
                                               Exhibit A – Page 1 of 1




USDA/OIG-A/27010-17-KC                                Page 9
